U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 20, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

AMG Capital Management, LLC, et al. v. Federal Trade Commission,
S.CtNo. 19-508

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 18,
2019, and placed on the docket on October 21, 2019. The government's response is due on
November 20, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 20, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0508
AMG CAPITAL MANAGEMENT, LLC, ET AL.
FTC

CORBIN K. BARTHOLD
WASHINGTON LEGAL FOUNDATION
2009 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20036
CBARTHOLD@WLF,ORG
CYNTHIA FLEMING CRAWFORD
CAUSE OF ACTION INSTITUTE
1875 EYE STREET, NW
SUITE 800
WASHINGTON, DC 20006
202-499-4232
CYNTHIA.CRAWFORD@CAUSEOFACTION.OR
G
JEFFREY A. LAMKEN
MOLOLAMKEN LLP
THE WATERGATE
600 NEW HAMPSHIRE AVE., NW
SUITE 660
WASHINGTON, DC 20037
202-556-2000
JLAMKEN@MOLOLAMKEN.COM
PAUL C. RAY
PAUL C. RAY, CHTD
8670 WEST CHEYENNE AVE.
SUITE 120
LAS VEGAS, NV 89129
702-823-2292
PAULCRAYLAW@GMAIL.COM

PAUL D. SCHMITT
DLA PIPER LLP (US)
500 EIGHTH STREET, NW
WASHINGTON, DC 20004
202-799-4524
PAUL. SCHMITT@US.DLAPIPER.COM

